No.
In The Supreme Court of the United States
In re LORCAN T. KILROY,
Petitioner
v.
LOS ANGELES UNIFIED SCHOOL DISTRICT BOARD OF EDUCTION et
al.,
Respondents.

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I certify that the document
contains 7205 words excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on Sept 2, 2020

By:

Is/ Lorcan T. Kilroy
LORCAN T. KILROY
Petitioner In Pro Se

